Case: 18-6001

Document: 21-1

Filed: 03/11/2020

Page: 1

Case No. 18-6001
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
BERLINDA A. MADDEN
Plaintiff - Appellant
v.

MEGAN J. BRENNAN, Post Master General United States Post Office Service
Defendant - Appellee

BEFORE: KETHLEDGE, BUSH, and MURPHY, Circuit Judges.

Upon consideration of the petition for rehearing filed by the Appellant,
It is ORDERED that the petition for rehearing be, and it hereby is, DENIED.

ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

Issued: March 11,2020

Case: 18-6001

Document: 19-1

Filed: 09/11/2019

Page: 1

NOT RECOMMENDED FOR FULL-TEXT PUBLICATION
No. 18-6001
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
BERLINDA A. MADDEN,
Plaintiff-Appellant,
v.
MEGAN J. BRENNAN, Post Master General
United States Post Office Service,
Defendant-Appellee.

)
)
)
)
)
)
)
)
)
)
)

FILED

Sep 11,2019
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
TENNESSEE

ORDER
Before: KETHLEDGE, BUSH, and MURPHY, Circuit Judges.
Berlinda A. Madden, a Tennessee resident proceeding pro se, appeals the district court’s
judgment in favor of the defendant on her claims of discrimination, creation of a hostile work
environment, and retaliation. This case has been referred to a panel of the court that, upon
examination, unanimously agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
Madden, a former employee of the United States Postal Service (“USPS”), filed a
complaint alleging violations of the Rehabilitation Act, Title VII of the Civil Rights Act of 1964,
and the First Amendment. The district court dismissed all of Madden’s claims, except for her
claims against Postmaster General Megan Brennan alleging a failure to accommodate, the creation
of a hostile work environment, and retaliation under the Rehabilitation Act. The district court then
granted summary judgment in favor of Brennan after determining that Madden failed to
demonstrate that she requested an accommodation related to her disability that USPS failed to
provide, that she was subjected to a hostile work environment, and that an adverse employment

Case: 18-6001

Document: 19-1

Filed: 09/11/2019

Page: 2

No. 18-6001
-2action was taken against her in retaliation for filing a grievance with the Equal Employment
Opportunity Commission (“EEOC”).
Madden now argues that the district court erred in granting summary judgment to Brennan
on her retaliation and hostile-work-environment claims under the Rehabilitation Act. Madden has
forfeited review of any claims that she raised in the district court but did not raise in her opening
brief on appeal, including her failure-to-accommodate claim. See Kuhn v. Washtenaw County,
709 F.3d 612, 624-25 (6th Cir. 2013).
We review de novo a district court’s grant of summary judgment. Franklin v. Kellogg Co,,
619 F.3d 604, 610 (6th Cir. 2010). Summary judgment is appropriate when the evidence presented
shows “that there is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). The moving party bears the burden of showing
“that there is an absence of evidence to support the nonmoving party’s case.” Celotex Corp. v.
Catrett, All U.S. 317, 325 (1986).
Retaliation claims under the Rehabilitation Act are analyzed in accordance with the
burden-shifting analysis of McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973). Gribcheck
v. Runyon, 245 F.3d 547, 550 (6th Cir. 2001). The plaintiff bears the initial burden of setting forth
a prima facie case of retaliation. McDonnell Douglas Corp., AW U.S. at 802. To establish a prima
facie case of retaliation, the plaintiff must demonstrate that (1) the plaintiff engaged in a legally
protected activity; (2) the defendant knew about the engagement in the protected activity; (3) the
defendant “then took adverse action against” the plaintiff; and (4) “there was a causal connection
between the protected activity and the adverse action.” A.C. ex rel. J.C. v. Shelby Cty. Bd. ofEduc.,
711 F.3d 687, 697 (6th Cir. 2013). Madden argues that after she filed a complaint with the EEOC
in September 2009 she was retaliated against when she was designated as absent without leave
(“AWOL”) on January 8, 2010. However, Madden has not offered any evidence to show that her
one-day AWOL designation was in error or that there was “a causal connection” between her filing
of a grievance and that designation. Id. Thus, the district court did not err in granting summary
judgment to Brennan on Madden’s retaliation claim.

Case: 18-6001

Document: 19-1

Filed: 09/11/2019

Page: 3

No. 18-6001
-3To establish a hostile-work-environment claim under the Rehabilitation Act, a plaintiff
must show that “(1) [s]he was disabled; (2) [s]he was subject to unwelcome harassment; (3) the
harassment was based on [her] disability; (4) the harassment unreasonably interfered with [her]
work performance; and (5) defendant either knew or should have known about the harassment and
failed to take corrective measures.” Spence v. Donahoe, 515 F. App’x 561, 571 (6th Cir. 2013)
(quoting Plautz v. Potter, 156 F. App’x 812, 818 (6th Cir. 2005)). Although Madden alleged that
she was told not to use a restroom she had been previously allowed to use, that she was not allowed
bathroom breaks, and that she was denied permission to go to a union meeting, she has failed to
show that this supposed harassment was “because of [her] medical condition” or that it “permeated
[her] work environment.” Plautz, 156 F. App’x at 819. Thus, the district court did not err in
granting summary judgment in favor of Brennan on Madden’s hostile-work-environment claim.
Id.
For the foregoing reasons, we AFFIRM the judgment of the district court.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
at CHATTANOOGA
BERLINDA A. MADDEN,

)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.

MEGAN J. BRENNAN,
Defendant.

Case No. i:15-cv-296
Judge Mattice
Magistrate Judge Lee

JUDGMENT
This case came before the Court on the Motion for Summary Judgment (Doc. 93)
filed by Defendant Megan J. Brennan. The Honorable Harry S. Mattice, Jr., United States
District Judge, having granted the Motion,
It is ORDERED AND ADJUDGED that this action be, and hereby is,
DISMISSED WITH PREJUDICE.
Dated at Chattanooga, Tennessee, this 5th day of September 2018.

/s/ John Medearis
John Medearis
CLERK OF COURT

Case l:15-cv-00296-HSM-SKL Document 118 Filed 09/05/18 Page 1 of 1 PagelD #: 760

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT CHATTANOOGA
BERLINDA A. MADDEN,
Plaintiff,
v.
MEGAN J. BRENNAN,
Postmaster General, United States Postal Service,
et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

Case No. l:15-cv-296-HSM-SKL

)
)
)
)
)

REPORT AND RECOMMENDATION
Before the District Court is a motion filed by pro se Plaintiff/Appellant Berlinda A.
Madden (“Madden”) requesting an installment plan for payment of the filing fees associated with
her appeal of this Court’s final decision to the United States Court of Appeals for the Sixth Circuit
( Sixth Circuit”) [Doc. 121].'. The Sixth Circuit generally requests that the District Court make
an initial determination regarding whether a party on direct appeal is indigent [Doc. 120], and
1

Madden’s case has been assigned docket case number 18-6001 by the Sixth Circuit [Doc. 120],
At the inception of her case, Madden’s motion for leave to proceed IFP in the District Court was
denied, but Madden was permitted to pay the filing fee in increments of $100 per month to ease
her financial burden [Doc. 5]. The undersigned has been advised by a deputy clerk of the Sixth
Circuit that appellants are not permitted to pay the filing fee for an appeal in installments and/or
incrementally.

Case l:15-cv-00296-HSM-SKL Document 125 Filed 10/12/18 Page 1 of 4 PagelD #: 781

Madden’s filing is being considered as a proper motion seeking in forma pauperis (“IFP”) status
on appeal. Accordingly, Madden was required to file an updated and appropriate IFP application
in order for the District Court to make an initial determination as to whether Madden is currently
unable to pay the filing fees for an appeal in full [Doc. 122]. As ordered, Madden timely filed her
IFP application [Doc. 123],
Title 28 U.S.C. § 1915 authorizes an indigent plaintiff to file a complaint without
prepayment of the usual filing fees. The purpose of the statute is “to ensure that indigent litigants
have meaningful access to the federal courts.” Neitzke v. Williams, 490 U.S. 319, 324 (1989)
{citing Adkins v. E.I. DuPont de Nemours & Co., 335 U.S. 331, 342 (1948)). Review of a request
to proceed IFP is generally based solely on the affidavit of indigence. See, e.g., Gibson v. R.G.
Smith Co., 915 F.2d 260, 262-63 (6th Cir. 1990). The threshold requirement an indigent plaintiff
must meet in order to proceed IFP is to show, by affidavit, that she is unable to pay court fees and
costs. 28 U.S.C. § 1915(a). An affidavit to proceed IFP is sufficient if it shows an indigent
plaintiff s financial situation will not permit her to pay for the costs of the litigation and also be
able to provide the necessities of life for herself and her dependents. Adkins, 355 U.S. at 339.
Madden’s IFP application does not show she is unable to pay the $505.00 filing fe e on
direct appeal while still affording the necessities of life. Madden states she is currently employed,
but it is somewhat difficult to determine her total monthly income as she failed to list that amount
as required on Page 9 of the IFP application [Doc. 123 at Page ID #776],2 However, Madden

2 Madden’s confusing responses to the section of the IFP application which requires the listing of
2

Case l:15-cv-00296-HSM-SKL Document 125 Filed 10/12/18 Page 2 of 4 PagelD #: 782

clearly reported a $4,214.00 balance in her savings accounts and $978.00 balance in her checking
accounts. Moreover, Madden’s itemized monthly living expenses add up to $2,667.50 (rather
than the reported $2,717.50 on Page 7 of the IFP application) and her monthly net income is $3,800
[Doc. 123 at Page ID ## 769, 774], Upon review of Madden’s assets, it also appears that she has
an interest in two real estate properties, the home at which she is currently residing according to
Page 2 of her IFP application and a property in Ooltewah, Tennessee [Doc. 123 at Page ID ## 769,
771-72], Additionally, Madden claims no dependents. In short, Madden has reported sufficient
resources to pay the filing fees after her monthly living expenses are satisfied
From a thorough review of the IFP application, I cannot find that Madden is unable to pay
the filing fees to appeal or that her financial situation will not permit her to pay for the costs of the
litigation and also be able to provide the necessities of life. Accordingly, I RECOMMEND that

both gross and net salary and wages per month, states “Workers Compensation since 2011 See
Attachment” in the section in which Gross salary and wage should be listed and then lists Net
monthly income as $3,800. The attachment which Madden referenced in the section of her IFP
application where gross salary and wages information was required, states that sometime around
Apnl 30, 2018 her workers’ compensation payments were terminated and “[t]o date the benefits
have not been fully restored and pay has not been fully restored.” [Doc. 123 at Page ID # 778] It
is unclear if Madden’s reference to “pay” is referring to a reduction in her employment income or
°theJ ‘rJcome or benefits. Additionally, Madden states she has received in the last 12 months
7-1 TV24 m Veteran’s Administration Disability [Doc. 123 at Page ID # 770]; She does not state
if this is a monthly benefit or a one-time payment.
3

Case l:15-cv-00296-HSM-SKL Document 125 Filed 10/12/18 Page 3 of 4 PagelD #: 783

Madden’s motion and IFP application [Docs. 121 & 123] be DENIED.3

s/ Qfuiem SfCQfee________ _____ ___________

SUSAN K. LEE
UNITED STATES MAGISTRATE JUDGE

Any objections to this report and recommendation must be served and filed within 14 days after
service of a copy of this recommended disposition on the objecting party. Such objections must
conform to the requirements of Rule 72(b) of the Federal Rules of Civil Procedure. Failure to
ft e objections within the time specified waives the right to appeal the District Court’s order
Thomas v. Am, 474 U.S. 140,149n.7(1985). The District Court need not provide de novo review
where objections to this report and recommendation are frivolous, conclusive and general. Mira
v. Marshall, 806 F.2d 636, 637 (6th Cir. 1986). Only specific objections are reserved for
appellate review.. Smith v. Detroit Fed’n of Teachers, 829 F.2d 1370,1373 (6th Cir. 1987). See
also Sixth Circuit Clerk’s letter dated September 21, 2018, regarding the right to renew the
motion to proceed IFP with the Sixth Circuit [Doc. 120].
4

Case l:15-cv-00296-HSM-SKL Document 125 Filed 10/12/18 Page 4 of 4 PagelD #: 784

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
at CHATTANOOGA
BERLINDA A. MADDEN,
Plaintiff,
v.

MEGAN J. BRENNAN,
Defendant.

)
)
)
)
)
)
)
)
)
)

Case No. i:i5-cv-296
Judge Mattice
Magistrate Judge Lee

MEMORANDUM OPINION
This matter is before the Court on the Motion for Summary Judgment (Doc. 93)
filed by Defendant Megan J. Brennan as Postmaster General of the United States Postal
Service (“Defendant”) and former Defendants Darren Rzeplinski, Vic Condroski, Cindy
Bingham, Linda Melton, Tamara Dehart, and Larry Hutchinson (the “Individual
Defendants”). Since the filing of the motion, the Court has granted the Amended Motion
to Dismiss.(Doc, 38), dismissing all counts of Plaintiff Berlinda A. Madden’s amended
^complaint as to The Individual Defendants, who are consequently no longer parties to this
action. (Doc. 103 at 22). The Court also granted in part the Motion to Dismiss of
Defendant Brennan (Doc. 47), dismissing Plaintiffs claims under 42 U.S.C. § 1983. (Doc.
103 at 22). The Court now considers whether Defendant is entitled to summary judgment
on Plaintiffs remaining claims for failure to accommodate, hostile work environment,
and retaliation under the Rehabilitation Act of 1973.
Also before the Court is Defendant’s Motion to Strike Plaintiffs Reply on Motion
to Deny Summary Judgment on the Issue of Rehabilitation Act (Doc. 106). Because the
Court finds that the Motion for Summary Judgment should be granted irrespective of

Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 1 of 17 PagelD #: 743

Plaintiffs reply (Doc. 104), the Court does not reach the issues presented by the Motion
to Strike.
For the reasons explained below, Defendant Brennan’s Motion for Summary
Judgment (Doc. 93) will be GRANTED and this action will be DISMISSED WITH
PREJUDICE.

I. FACTUAL AND PROCEDURAL BACKGROUND
The record reflects that Plaintiff began her employment with the United States
Postal Service in 2000. (Doc. 93-1 at 2). During the period relevant to the Amended
Complaint, Plaintiff worked as a mail handler at the Processing and Distribution Center,
or P&DC. (Doc. 34 at 2). While the duties of a mail handler vary, they include processing
mail and loading and unloading trucks, and therefore mail handlers are generally
expected to be able to lift up to seventy pounds. (Doc. 93-1 at 12). During her employment,
the Plaintiff sustained injuries that were covered by the USPS workers compensation
program. (Doc. 93-i at 3, 12, 24). She initially reported suffering from carpal tunnel
, syndrome in.2002 or 2003. (Doc. 93-1 at 18). In 2009, Plaintiffs physical restrictions
---- cMQS®djoughly everyLmonth or two as she had appointments with her physician. (Doc.
93-1 at 23-24). Because her restrictions changed frequently, her job title or duties would
often change as well. (Id.)
In September 2009, Plaintiff made initial contact with an EEO counselor regarding
claims that USPS discriminated against her. (Doc. 34 at 5). The disposition of this charge,
Case No. 1H-3720016-09, is not clear from the record.1

1 An EEO Dispute Resolution Specialist’s Inquiry Report marked as Defendant’s Exhibit 20 in Plaintiffs
^Position suggests she filed a formal complaint related to the 2009 EEO charge on April 6, 2010. (Doc. 93-2-

Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 2 of 17 PageiD #: 744

In early December 2009, Plaintiff had surgery related to her carpal tunnel
condition. (Doc. 93-1 at 8).2 0n December 20, 2009, she accepted an offer of modified
assignment, which indicated that she was unable to perform tasks involving pushing,
pulling, or lifting, that she could only sit for up to 7 hours, and that she could not use her
right hand. (Doc. 93-1 at 33-34)- Her modified assignment was for “limited duty standby,”
requiring her to sit in a room in the P&DC during her shift hours. (Doc. 93-1 at 33-35).
As discussed in more detail below, the core events that form the basis for Plaintiffs
claims occurred between December 6, 2009, and January 20, 2010, during the 45-day
period prior to her initial contact with the EEO counselor regarding this matter:
December 19, 2009 to January 5, 2010: Plaintiff was assigned to limited duty
standby, requiring her to sit in a standby room during her shift. (Doc. 34 at 5).
December 2009: Plaintiff was “harassed” by supervisor Tamara Dehart about using a
restroom she had previously been given permission to use during her shifts in the standby
room. (Doc. 34 at 6; Doc. 93-1 at 60-61).
December 26, 2009: Plaintiffs non-scheduled days were changed. (Doc. 34 at 5).
December 28, 2009: Plaintiff requested leave to either go to a union meeting or file a
grievance. (Doc. 34 at 6; Doc. 93-i at 67-68). Supervisor Vic Condroski gave her a “hard
time” about it and denied her request. (Doc. 34 at 6). During her deposition, she could

not recall details of the interaction. (Doc. 93-1 at 67-68).
January 5, 2010: Unspecified management did not approve her leave request. (Doc. 34
at 6). Also on January 5, 2010, her work hours were changed. {Id.).

^ The record is not clear on this point, but Plaintiffs surgery appears to have been on December 7 2009
(Doc. 93-1 at 8,42-43).
y'

-3-

Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 3 of 17 PagelD #: 745

January 8, 2010: Plaintiff was written up as absent without leave (“AWOL”) by
supervisor Linda Melton. (Doc. 34 at 6). Supervisors Melton and Darren Rzeplinski were
both responsible for the write-up according to the affidavit of J.R. Takacs, a former co­
worker of Plaintiff. (Doc. 97 at 18-19). According to Mr. Takacs, Rzeplinski told him he
would remove the “AWOL” if Plaintiff agreed to withdraw her EEO complaint. (Id.).
January 11, 2010. An unspecified person instructed Plaintiff to work outside of her
physical restrictions. Plaintiff did so and it caused her to tear both right and left shoulders.
(Doc. 34 at 6).
January 19, 2010. Supervisor Cindy Bingham told Plaintiff that she was not allowed to
go on bathroom breaks and to “hold it.” (Doc. 34 at 5).
January 26, 2010: Someone tried to force Plaintiff to sign unidentified papers by
threatening, intimidating, screaming, and yelling at her. (Doc. 34 at 21).
Winter 2°°9: An assignment related to certain Netflix trays required lifting beyond the
10-pound restriction Plaintiff had at that time. (Doc. 93-1 at 14-15).
'

Plaintiff contacted an EEO Counselor on January 20, 2010, relating to these and

... otherevents. (Doc. 47-2; Doc. 93-1 at 65). She filed a formal complaint in the matter,
designated Case No. 1H-372-0008-10, on May 1, 2010. (Doc. 34 at 2; Doc. 47-1 at 8).
Thqugh a final agency decision does not appear in the record, it is apparently undisputed
that one was issued in Case No. 1H-372-0008-10 and that the agency found no
discrimination had occurred.
Plaintiffs claims before this Court rely on two additional events that occurred after
she filed her formal agency complaint. (Doc. 47-1; Doc. 97 at 2). First, Plaintiffs former
coworker Michael Houston allegedly had a conversation with a USPS supervisor on June
10, 2010, in which Plaintiff was referenced. (Doc. 34 at 6). The letter regarding this event
-4Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 4 of 17 PagelD#: 746

does not purport to be a declaration under penalty of perjury, see 28 U.S.C. § 1746(2), or
a sworn statement. Plaintiff does not claim to have any personal knowledge of the
conversation. In the absence of admissible evidence of the alleged June

10, 2010

conversation, the Court will not consider it. FRCP 56(c)(4).
Several years later, in June 2012, Plaintiff received a letter from USPS notifying
her that there was no work for her nor would there be in the near future. (Doc. 34 at 6).
Her employment with USPS ended on July 14,2012. (Doc. 93-1 at 3). She began receiving
income from the Office of Workers’ Compensation Programs sometime thereafter. (Doc.
93-1 at 4).
Plaintiff timely filed this action on October 29, 2015, and amended her complaint
(Doc. 34) on March 6, 2017. The amended complaint includes a certification under
penalty of perjury that the allegations therein are true to the best of Plaintiffs
information, knowledge, and belief. (Doc. 34 at 9-10). Defendant filed the instant Motion
for Summary Judgment on January 30, 2018, (Doc. 93) and Plaintiff responded with
• ■

Plaintiffs Verified Motion to Deny Summaiy Judgment (Doc. 97) on February 12, 2018.
In its March 8,^2018 Order, the Court dismissed all claims against the Individual
Defendants and all Plaintiffs § 1983 claims. (Doc. 103). The Court also ruled that Plaintiff
had failed to exhaust her administrative remedies with respect to any incidents of
discrimination that occurred more than 45 days prior to her January 20, 2010 contact
with the EEO counselor. (Id.); see 29 C.F.R. § 1614.105 (requiring aggrieved persons who
believe they have been discriminated against to “initiate contact with a Counselor within
45 days of the matter alleged to be discriminatory”). Accordingly, in evaluating
Defendant’s Motion for Summary Judgment, the Court will consider allegations of
discrimination that occurred between December 6, 2009, and January 20, 2010, as well
-5Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 5 of 17 PagelD #: 747

as any incidents that could be reasonably expected to grow out of the charge of
discrimination. See Dixon v. Ashcroft, 392 F.3d 212, 217 (6th Gir. 2004) (“[T]he general
rule in this circuit... [is] that the judicial complaint must be limited to the scope of the
EEOC investigation reasonably expected to grow out of the charge of discrimination.”)
(quoting Weigel v. Baptist Hosp. of East Tennessee, 302 F.3d 367 (6th Cir. 2002)).
Defendant does not dispute the events described in Plaintiffs amended complaint,
but argues that the admissible evidence before the Court demonstrates an absence of
genuine issues of material fact and that Defendant is therefore entitled to judgment as a
matter of law. With the exception of a single affidavit, Plaintiffs submissions in
opposition to the motion do not refer the Court to specific evidence to support her claims,
instead repeating the allegations of the verified Amended Complaint nearly verbatim.
However, a verified complaint carries the same weight as would an affidavit for the
purposes of summary judgment. El Bey v. Roop, 530 F.3d 407, 414 (6th Cir. 2008). The
Court will treat the Amended Complaint as affidavit evidence to the extent that it is made
on personal knowledge, sets out facts that would be admissible in evidence, and shows
that the Plaintiff is competent to testify on the matters stated. Fed. R. Civ. P. 56(c)(4).
II. STANDARD OF REVIEW
L

,

Federal Rule of Civil Procedure 56 instructs the Court to grant summary judgment

“if the movant shows that there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). A party asserting
the presence or absence of genuine issues of material facts must support its position either
by “citing to particular parts of materials in the record,” including depositions,
documents, affidavits or declarations, stipulations, or other materials, or by “showing that
the materials cited do not establish the absence or presence of a genuine dispute, or that
-6Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 6 of 17 PagelD #: 748

r *

■

an adverse party cannot produce admissible evidence to support the fact.” Fed. R. Civ. P.
56 (c)(i). When ruling on a motion for summary judgment, the Court must view the facts
contained in the record and all inferences that can be drawn from those facts in the light
most favorable to the nonmoving party. Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio
Corp., 475 U.S. 574,587 (1986); Nat’l Satellite Sports, Inc. v. Eliadis Inc., 253 F.3d 900,
907 (6th Cir. 2001). The Court cannot weigh the evidence, judge the credibility of
witnesses, or determine the truth of any matter in dispute. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 249 (1986).
The moving party bears the initial burden of demonstrating that no genuine issue
of material fact exists. Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). The moving
party may discharge this burden either by producing evidence that demonstrates the
absence of a genuine issue of material fact or simply “by ‘showing’ - that is, pointing out
to the district court - that there is an absence of evidence to. support the nonmoving
party’s case.” Id. at 325. Where the movant has satisfied this burden, the nonmoving party
cannot “rest upon its ... pleadings, but rather must set forth specific facts showing that
there is a genuine issue for trial.” Moldowan v. City of Warren, 578 F.3d 351, 374 (6th
Cir. 2009) (citing Matsushita, 475 U.S. at 586; Fed. R. Civ. P. 56). The nonmoving party
* - must P^sent sufficient probative evidence supporting its claim that disputes over
material facts remain and must be resolved by a judge or jury at trial. Anderson, 477 U.S.
at 248-49 (citing First Nat’l Bank ofAriz. v. Cities Serv. Co., 391 U.S. 253 (1968)); see
also White v. Wyndham Vacation Ownership, Inc., 617 F.3d 472,475-76 (6th Cir. 2010).
A mere scintilla of evidence is not enough; there must be evidence from which a jury could
reasonably find in favor of the nonmoving party. Anderson, 477 U.S. at 252; Moldowan,
578 F.3d at 374. If the nonmoving party fails to make a sufficient showing on an essential
-7Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 7 of 17 PagelD #: 749

element of its case with respect to which it has the burden of proof, the moving party is
entitled to summary judgment. Celotex, 477 U.S. at 323.
III. ANALYSIS
The Rehabilitation Act of 1973, 29 U.S.C. § 701 et seq., is the exclusive remedy for
a federal employee alleging disability-based discrimination. Plautz v. Potter, 156 F. App’x
812, 815 (6th Cir. 2005). The Rehabilitation Act provides that “[n]o otherwise qualified
individual with a disability... shall, solely by reason of her or his disability, be excluded
from participation in, be denied the benefits of, or be subjected to discrimination under
any program or activity receiving Federal financial assistance.... ” 29 U.S.C. § 794(a).
Plaintiff asserts claims against Defendant for failure to accommodate, hostile work
environment, and retaliation under the Rehabilitation Act.
A. Rehabilitation Act — Failure to Accommodate
In order to establish a prima facie case of disability discrimination based on an
employer’s failure to accommodate, a plaintiff must show the following: (1) she is an
L(, ;

individual with a disability under the Act, (2) she is otherwise qualified for the position,

- * - - - — (3) the agency.was aware of her disability, (4) an accommodation was needed, i.e., a causal
relationship existed between the disability and the request for accommodation, and (5)
•

:

agency failed to provide the necessary accommodation. Gaines v. Runyon, 107 F.3d
1171> n75~76 (6th Cir. 1997). If the employee establishes a prima facie case, the burden
shifts to the employer to show that the employee could not be reasonably accommodated
without imposing an undue hardship on the operation of its programs. Id.
Here, Defendant contends that Plaintiff has not met her burden because USPS
accommodated her by modifying her duties until her physical restrictions increased to the

-8Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 8 of 17 PagelD #: 750

point that there was no work for her to do. (Doc. 93 at 2).s Plaintiffs response recites the
allegations of her Amended Complaint, relying solely on incidents that occurred prior to
December 6, 2009, and which are therefore not properly before the Court. (Doc. 34 at 67; Doc. 97 at 6-7). However, because the Defendant has the burden of showing that there
is insufficient evidence to create a genuine issue of material fact for trial, the Court reviews
the evidence submitted by Defendant and construes it in the light most favorable to the
Plaintiff. See Briggs v. Univ. of Detroit-Mercy, 611 F. App’x 865, 870-71 (6th Cir. 2015)
(“[E]ven where a motion for summary judgment is unopposed (in whole or in part), a
district court must review carefully the portions of the record submitted by the moving
party to determine whether a genuine dispute of material fact exists.”).
Plaintiff asserts that she requested accommodations from USPS by providing her
supervisors with duty status reports from her physicians, which outlined her physical
restrictions. (Doc. 93-1 at 41-42). She testified that she provided these restrictions after
her surgery in December 2009. (Doc. 93-1 at 8). The record does not indicate when she
returned to work, but on December 20, 2009, she accepted an offer of modified
assignment for limited duty standby. (Doc. 93-1 at 34). The offer reflected that her
physical restrictions at the time included “no pushing, pulling, or lifting,” no use of her
right hand, and that she could only sit for 7 hours. (Id.). Plaintiff does not contend that
her request for accommodation was denied or that the limited duty standby assignment
was outside of her physical restrictions. Rather, she contends that by placing her on
limited duty standby instead of giving her other work to do, USPS failed to accommodate
her. (Doc. 93-1 at 43-44).

(D^ a^ear^

uncontested that Plaintiff is an individual with a disability within the meaning of the Act.

-9Case l:15-cv-00296-HSM-SKL Document 117 • Filed 09/05/18 Page 9 of 17 PagelD#:751

The Rehabilitation Act imposes a duty on employers to “provide reasonable
accommodations that make it possible for the disabled employee to perform the essential
functions of [her] job.” Gaines v. Runyon, 107 F.3d at 1178. However, “[t]he employer
need not provide the accommodation that the employee requests or prefers.” Trepka v.
Board ofEduc., 28 F. App’x 455,459-60 (6th Cir. 2002) (finding no issue of material fact
as to reasonable accommodation claim under the Rehabilitation Act). If different
reasonable accommodation is provided, “an employee is not entitled to a particular
reasonable accommodation.” Id. Therefore, to avoid summary judgment, “[Plaintiff] must
demonstrate a genuine issue of material fact with regard not only to her entitlement to
her requested accommodation, but also to the inadequacy of the offered alternatives.” Id.
at 460. Plaintiff has not pointed to any evidence that her limited duty standby assignment
was inadequate to accommodate the physical restrictions arising from her disability.
Two other incidents could conceivably relate to Plaintiff’s failure to accommodate
claim, but neither includes sufficient detail to satisfy Plaintiffs prima facie burden. First,
Plaintiffs=Amended Complaint states that she was instructed to work outside of her
- restrictions on January 11,2010, and that she suffered injury as a result. She did not testify
regarding this incident. Second, Plaintiff testified in her deposition that there was a
. JMetflix-related job assignment that involved lifting over 10 pounds, which she could not
do. Neither instance shows that Plaintiff made a request for specific accommodation, that
the requested accommodation was causally related to her disability, or that USPS failed
to accommodate her.
The Court has carefully reviewed the submissions of Defendant and Plaintiff in
connection with this motion and finds that there is not sufficient evidence to show that
Plaintiff requested an accommodation related to her disability that USPS failed to
-10 -

Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 10 of 17 PagelD#:752

provide. On the contrary, the evidence indicates that Plaintiff requested accommodation
after her surgery in December 2009 and was provided an assignment within her physical
abilities. Because Plaintiff has not met her prima facie burden, Defendant is entitled to
summary judgment as to Count 1 of Plaintiffs Amended Complaint for failure to
accommodate under the Rehabilitation Act.
B. Rehabilitation Act — Hostile Work Environment
To prevail on a hostile work environment claim under the Rehabilitation Act,
plaintiff must establish five elements: (1) she was disabled, (2) she was subject to
unwelcome harassment, (3) the harassment was based on her disability, (4) the
harassment unreasonably interfered with her work performance, and (5) the defendant
either knew or should have known about the harassment and failed to take corrective
measures. Plautz v. Potter, 156 F. App’x at 818 (“We borrow the standard for a hostile
work environment claim under the Rehabilitation Act from the ADA.”). A plaintiff has
suffered from a hostile work environment when the workplace is “permeated with
discriminatory intimidation, ridicule, and insult that is sufficiently severe or pervasive to
alter the conditions of the victim’s employment and create an abusive working
environment. Harris v. Forklift Sys., Inc., 510 U.S. 17, 21 (1993) (internal punctuation
.and citation .omitted).. Conduct that is 'merely offensive’ will not suffice to support a
hostile work environment action.” Trepka v. Board ofEduc., 28 F. App’x at 461 (quoting
Harris, 510 U.S. at 21).
Defendant argues that even if all of Plaintiffs allegations are true, they do not
support a finding of harassment, much less harassment based on Plaintiffs disability.

-11 -

Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 11 of 17 PagelD #: 753

(Doc. 93 at 2).4 Plaintiff did not substantively respond to Defendant’s argument in this
regard, again reciting the allegations of her Amended Complaint. (Doc. 97 at 8). Her
claims find no further support in her attached documentation, which consists of an
unsworn statement from a third party and the declaration of Mr. Takacs. The affidavit of
Mr. Takacs addresses one incident during the relevant period—a conversation for which
Plaintiff was not present and which does not appear to have included any hostile,
intimidating, or threatening comments. (Doc. 97 at 18).
Turning to the verified allegations of Plaintiffs Amended Complaint and viewing
the evidence in the light most favorable to her, the Court notes the following incidents
that occurred between December 6, 2009, and January 10, 2010, that Plaintiff could
potentially have viewed as harassing or hostile:
December 2009: Plaintiff was “harassed” by supervisor Dehart about using a restroom
she had previously been given permission to use during her shifts in the standby room.
(Doc. 34 at 6). Plaintiff testified in her deposition that supervisor Melton gave her
permission to use the restroom in question, that supervisor Dehart saw her leave the
restroom and that Dehart and then Melton subsequently instructed her not to use it. (Doc.
931-1 at 60-62). These interactions were discriminatory in her view because the other
, bathrooms.in the building were further away. (Id. at 61). Plaintiff does not claim that the
tone, volume, or substance of these interactions were humiliating or offensive. Plaintiff
v

does not claim that walking further to the restroom imposed any hardship on her or
aggravated her injuries.

4 Defendant also argues that Plaintiffs hostile work environment claim is procedurally barred due to failure
to exhaust administrative remedies. (Doc. 93 at 2). This argument was considered and rejected in the
Court’s March 3, 2018 Order. (Doc. 103 at 18-19).
- 12 -

Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 12 of 17 PagelD #: 754

December 28, 2009: Plaintiff requested leave to go to a union meeting and supervisor
Vic Condroski gave her a “hard time” about it and denied her request. (Doc. 34 at 5). She
could not recall the details of the request, only that it was denied. (Doc. 67-68) She
testified that she “did not file an EEO or grievance against it so I’m not going to worry
about it.” (Doc. 93-1 at 68).
January 19, 2010: Supervisor Cindy Bingham told Plaintiff that she was not allowed to
go on bathroom breaks and to “hold it.” (Doc. 34 at 5).
January 26, 2010. After she contacted an EEO counselor, an unspecified person “tried
to force [her] to sign [a] forged paper by threatening, intimidated screaming and yelling.”
(Doc. 34 at 5). Plaintiff does not allege that this incident took place at work, that any
employees of USPS were present, or that the dispute related to her disability. No further
evidence regarding the incident appears in the record and Plaintiff apparently did not
offer any testimony about it (Doc. 94 at 16), despite being explicitly asked if there were
[a]ny other ways in which [she was] subjected to a hostile work environment.” (Doc. 931 at page 53).
! I

• ■■

White the Court must draw all inferences in favor of the nonmoving party, it is not
required to fill in gaps in the factual record in order to discharge this duty. The admissible

— ~evteence before the Court, suggests that Plaintiff experienced a string of incidents in her
workplace ranging from annoyances to rude comments. Taken together, these events
cannot be reasonably construed as creating an environment “permeated with
discriminatory intimidation, ridicule, and insult.” Harris v. Forklift Sys., Inc., 510 U.S. at
21. “There is no evidence that [Plaintiff] was ridiculed or insulted because of [her] medical
condition to the point that it permeated [her] work environment.” Plautz v. Potter, 156 F.
App’x at 819. Indeed, there is no indication that Plaintiff was ridiculed at all, or that any
-13Case 1.15-CV-00296-HSM-SKL Document 117 Filed 09/05/18 Page 13 of 17 PagelD #: 755

reference was made to her disability by her supervisors or coworkers. See Trepka v. Board
of Educ., 28 F. App’x at 461 (finding that a single reference to plaintiffs disability was
insufficiently severe to constitute harassment). No reasonable trier of fact could find that
Plaintiff suffered from a hostile work environment and accordingly, Defendant is entitled
to summary judgment as to Plaintiff s claims of harassment and hostile work environment
under the Rehabilitation Act set out in Counts 2 and 4 of the amended complaint.
C. Rehabilitation Act — Retaliation
A prima facie case of retaliation under the Rehabilitation Act requires Plaintiff to
establish four elements: (1) plaintiff engaged in protected activity, (2) defendant knew
about the protected activity, (3) defendant subsequently took an adverse employment
action, and (4) a causal connection existed between the protected activity and the adverse
employment action or harassment. Gribcheck v. Runyon, 245 F.3d 547, 550 (6th Cir.
2001) (applying burden-shifting framework of McDonnell Douglas Corp. v. Green, 411
U.S. 792 (1973), to retaliation claim under the Rehabilitation Act). Once plaintiff has
made out a prima facie case of discrimination, the burden shifts to the defendant to
articulate a legitimate, nondiscriminatory reason for its actions. Id. If the defendant
carries that burden, the plaintiff then has an opportunity to show that the reasons offered
by the defendant are mere pretext for discrimination. Id.
Here, Plaintiff contends her “trouble started” when she filed an EEO charge in
September 2009. (Doc. 34 at 5)- The Court infers that this protected activity is the basis
for Plaintiffs retaliation claim, satisfying the first element. With respect to the second
element, it is not clear which of Plaintiffs supervisors were aware of her September EEO
charge, but supervisors Melton and Rzeplinski became aware of it sometime prior to
January 8, 2010. (Doc. 97 at 18-19).
-14Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 14 of 17 PagelD#:756

Next, Plaintiff must show she was the recipient of an adverse employment action,
which means a materially adverse change in the terms or conditions of employment
because of the employer’s conduct.” Plautz v. Potter, 156 F. App’x at 817 (quoting Mitchell
v. Vanderbilt Univ., 389 F.3d 177, 182 (6th Cir. 2004) (punctuation omitted). “[A]
‘materially adverse’ change in employment conditions ‘must be more disruptive than a
mere inconvenience or an alteration of job responsibilities.’” Mitchell, 389 F.3d at 182
(quoting Kocsis v. Multi-Care Mgmt., Inc., 97 F.3d 876, 886 (6th Cir. 1996)).
—

In opposition to the motion for summary judgment, Plaintiff submits the
declaration of J.R. Takacs, a former coworker of Plaintiff and union representative. In
pertinent part, the declaration indicates that supervisors Melton and Rzeplinski told Mr.
Takacs that they would remove Plaintiff’s AWOL write-up if Plaintiff withdrew her EEO
complaint. (Doc. 97 at 19). Plaintiff’s Amended Complaint states that she was written up
as absent without leave on January 8, 2010. (Doc. 34 at 6). She does not claim to have
been at work or on authorized leave on January 8, 2010.
An adverse employment action must be “materially adverse,” meaning that “it well
r might have dissuaded a. reasonable worker from making or supporting a charge of
discrimination.” Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S. 53, 68 (2006)
-

(internal punctuation and citation omitted) (discussing adverse employment action in the
context of Title VII action). The focus of an adverse employment action inquiry is thus
forward-looking: would the AWOL write-up have deterred a reasonable employee from
further protected activity? If not, a later quid pro quo offer to remove the write-up does
not retroactively convert it into an adverse employment action. Because Plaintiff has
failed to claim that the absent without leave write-up was actually in error or harmed her
in any way, the Court cannot conclude that it constitutes an adverse employment action.
-15 -

Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 15 of 17 PagelD #: 757

See id. at 67 (holding that the “[t]he antiretaliation provision protects an individual not
from all retaliation, but from retaliation that produces an injury or harm”).
In the absence of additional evidence from the Plaintiff, the Court turns to any
events described in her verified complaint and deposition testimony that could be
construed as an adverse employment action. Plaintiff states that she was put on limited
duty standby, her nonscheduled days changed, her work hours changed, a leave request
was not approved, and she was denied leave time, to either go to a union meeting or file a
grievance. (Doc. 34 at 5_6). First, Plaintiff explicitly testified that her job duties changed
many times throughout 2009 because of her changing physical restrictions and injuries.
(Doc. 93-1 at 23-24). Plaintiff says she went to the doctor eveiy 1-2 months, received new
restrictions, turned those in, and “each time” her job title or duties would change. (Id.)
She also testified that certain limited duty assignments at the P&DC were done at certain
times of the day or night. (Doc. 93-1 at 15). She does not claim that her schedule changes
harmed or injured her. Even viewed in Madden’s favor, her leave and scheduling issues
cannot be construed as anything more than “the ordinary tribulations of the workplace.”
Burlington, 548 U.S. at 68 (quoting Faragher v. City of Boca Raton, 524 U.S. 775, 788
(1998)); see also Lynch v. U.S. Postal Serv., 3 F. App’x 287, 289 (6th. Cir. 2001) (finding
.no material change to the terms of plaintiffs employment where she was denied leave she
had not earned, charged for being late to work, and experienced delays in submitting a
worker’s compensation claim).
Plaintiffs separation from USPS on July 14, 2012 — nearly three years after her
September 2009 protected activity - is clearly an adverse employment action. Just as
clearly, it is too far removed in time from the protected activity to support the finding of
causation that is required for a.primafacie case of retaliation. Without other evidence of
-16 Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 16 of 17 PagelD#:758

causation, Plaintiffs termination nearly three years after she filed her EEO charge is
insufficiently temporally proximate to establish causation. See Mulvey v. Hugler, Case
No. 17-5633, 2018 WL 2771246 at *4 (6th Cir. April 3, 2018) (ruling that a gap of a year
between protected activity and adverse employment action “[did] not establish sufficient
temporal proximity to support a finding of causation”); Hafford v. Seidner, 183 F.3d 506,
515 (6th Cir. 1999) (in the absence of additional evidence, “loose temporal proximity” of
several months between protected activity and adverse employment action was
“insufficient to create a triable issue”).
Because Plaintiff has failed to establish the essential elements of optimafacie case
for retaliation under the Rehabilitation Act, the burden does not shift to Defendant to
provide a nondiscriminatory explanation of its actions and Defendant is entitled to
judgment as a matter of law.
IV. CONCLUSION
For the reasons set forth herein, the Court hereby ORDERS as follows:
:

L The Motion for Summary Judgment (Doc. 93) filed by Defendant Megan J.
Brennan is GRANTED;
2. This action is hereby DISMISSED with prejudice; and
3. A separate judgment shall enter.
SO ORDERED this 5th day of September 2018.

Js/ Harry S. Mattice. Jr.
HARRY S. MATTICE, JR.
UNITED STATES DISTRICT JUDGE

-17Case l:15-cv-00296-HSM-SKL Document 117 Filed 09/05/18 Page 17 of 17 PagelD #: 759

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
AT CHATTANOOGA
BERLINDA A. MADDEN,
Plaintiff,
v.
MEGHAN J. BRENNAN, Postmaster
General of the United States
Postal Service,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

1:15-cv-296-HSM-SKL

REPORT AND RECOMMENDATION
Before the Court is an application to proceed in forma pauperis (“IFP”) filed by Plaintiff
Berlinda A. Madden [Doc. 2], This matter comes before the undersigned pursuant to 28 U.S.C. §
636(b) and the rules of this Court,
Title 28 U.S.C. § 1915 authorizes an indigent plaintiff to file a complaint without
prepayment of the usual filing fee. The purpose of the statute is “to ensure that indigent litigants
have meaningful access to the federal courts.” Neitzke v. Williams, 490 U.S. 319, 324 (1989)
{citing Adkins v. E.I. DuPont de Nemours & Co., 335 U.S. 331, 342 (1948)). The Court’s review
of an application to proceed IFP is generally based solely on the affidavit of indigence. See, e.g.,
Gibson v. R.G. Smith Co., 915 F.2d 260, 262-63 (6th Cir. 1990). The threshold requirement a
petitioner must meet in order to proceed IFP is to show, by affidavit, that she is unable to pay court
fees and costs. 28 U.S.C. § 1915(a). An affidavit to proceed IFP is sufficient if it shows the
petitioner’s financial situation will not permit her to pay for the costs of the litigation and also be

Case l:15-cv-00296-HSM-SKL Document 3 Filed 11/25/15 Page 1 of 2 PagelD #: 17

able to provide the necessities of life for herself and her dependents. Adkins, 355 U.S. at 339.
Plaintiffs affidavit here does not show she is unable to pay the $400.00 filing fee while
still affording the necessities of life. Plaintiff states that her net monthly income from her job as a
mail handler with the United States Postal Service is $2,823.00 and her husband is currently
employed as an equipment operator making $10 an hour. Adding up the list of monthly living
expenses stated in her application, their itemized total monthly living expenses are $2,883.00.
Additionally, Plaintiff has checking and savings accounts totaling approximately $8,000.00. No
doubt, Plaintiffs financial situation is strained, but I cannot find she is unable to pay the Court’s
filing fee. Accordingly, I RECOMMEND the motion to proceed IFP [Doc. 2] be DENIED.1
In order to accommodate Plaintiffs financial situation, however, I further
RECOMMEND that she be allowed to pay the filing fee in installments of $100 per month for
four (4) months and that the clerk be directed to issue the a summons upon proper presentation by
Plaintiff and payment of the initial $100 installment of the filing fee. I further RECOMMEND
that Plaintiff provide for her own service of the summons and complaint at her own cost.

s/ Qfu6a/n, 2%?Qfee

SUSAN K. LEE
UNITED STATES MAGISTRATE JUDGE

Any objections to this report and recommendation must be served and filed within 14 days
after service of a copy of this recommended disposition on the objecting party. Such objections
must conform to the requirements of Rule 72(b) of the Federal Rules of Civil Procedure.
Failure to file objections within the time specified waives the right to appeal the district court's
order. Thomas v. Am, 474 U.S. 140, 149 n.7 (1985). The district court need not provide de
novo review where objections to this report and recommendation are frivolous, conclusive and
general. Mira v. Marshall, 806 F.2d 636, 637 (6th Cir. 1986). Only specific objections are
reserved for appellate review. Smith v. Detroit Fed’n of Teachers, 829 F.2d 1370, 1373 (6th
Cir. 1987).
2

Case l:15-cv-00296-HSM-SKL Document 3 Filed 11/25/15 Page 2 of 2 PagelD #: 18

Additional material
from this filing is
available in the
Clerk's Office.

